ARMED FORCES BANK, N.A. UNSECURED CREDIT CARD ACCOUNT-OPENING
DISCLOSURE STATEMENT
INTEREST RATES AND INTEREST CHARGES
ANNUAL PERCENTAGE RATE
(APR) FOR PURCHASES
APR FOR BALANCE TRANSFERS

15.60%

APR FOR CASH ADVANCES

15.60%

PENALTY APR

24.99%
This APR may be applied to your account if you Fail to make OR satisfy the required minimum
monthly payment within 60 days of the respective due date.

PAYING INTEREST
FOR CREDIT CARD TIPS FROM
THE CONSUMER FINANCIAL
PROTECTION BUREAU

FEES

ANNUAL FEE
TRANSACTION FEES
 BALANCE TRANSFER FEE
 CASH ADVANCE FEE
 CURRENCY CONVERSION
TRANSACTION FEE
 INTERNATIONAL TRANSACTION FEE
PENALTY FEES
 LATE PAYMENT FEE
 RETURNED PAYMENT FEE
 OVER THE LIMIT FEE
OTHER FEES
 CARD REPLACEMENT FEE
 COPYING FEE
 PIN REPLACEMENT FEE
 SPECIAL PROCESSING FEE

15.60%

How Long Will the Penalty APR Apply? : If your APR is increased for either reason, the
Penalty APR will apply until you make six consecutive minimum payments when due. If you do
not make these six consecutive minimum payments, we may keep the Penalty APR on your
account indefinitely.
Each due date will be at least 25 days after the close of each billing cycle. We will not impose
interest charges on purchases or balance transfers if you pay your entire balance in full by the due
date each month. We will begin charging interest on cash advances on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore
None
$2.00
$5.00 or 2% of amount advanced, whichever is greater
1.0% of each transaction in U.S. dollars, if currency conversion occurs.
0.8% of each transaction in U.S. dollars, if no currency conversion occurs.
Up to $25.00
Up to $25.00
None
$5.00 per card replaced prior to the normal reissue date.
$4.00 per-page fee for copies of transaction documents or statements, unless we are required
to provide them when resolving a billing dispute.
$2.00
$35.00 per card for expedited processing and delivery if available and offered.

How We Will Calculate Your Balance: We use a method called, “average daily balance” (including new purchases and balance transfers).
See the “Card Agreement” for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
The disclosures above are accurate as of the printing date of March 16, 2019 and are subject to change thereafter.
Please contact us for any information on any changes, call 888-929-2265 or by writing us at the following address:
Armed Forces Bank, N.A.
Attn: Credit Card Department
PO Box 26458
Kansas City, MO 64196

Revision dated 3-16-2019

1

ARMED FORCES BANK N.A. UNSECURED CREDIT CARD AGREEMENT

Thank you for opening a card account with us. This Armed Forces Bank N.A. Unsecured Credit Card Agreement (“Agreement”) and the related documents contain
the terms that govern our issuance, and your use, of the card. Please read this Agreement and related documents carefully and keep them for future reference.
Images of any of these documents can be used instead of the original.
1) In General.
a) Some Definitions. The meanings of the terms you see in italics appear in Section 5(d). We will also use the following personal pronouns throughout this
Agreement:
i) “You,” “your” and “yourself” mean each applicant and co-applicant for the account; any person responsible for paying the account; and anyone else you
authorize to use, access, or service the account.
ii) “We,” “us,” “our,” “AFB,” and “Armed Forces” mean Armed Forces Bank, National Association, and its agents, authorized representatives,
successors, and assignees.
b) Account Information.
i) We need information about you to manage your account. The information we need includes:
(1) your legal name;
(2) a valid U.S. mailing address and residential address (if different);
(3) your date of birth;
(4) your social security number or other government identification number;
(5) your telephone number(s); and
(6) your employment and income information.
ii) You must tell us when this information changes. Please update your address in the manner provided on your statement. You may also update some of
this information by logging onto your account on our website or by calling one of our representatives at the telephone number provided on your
statement or on the back of the card. We may require you to provide additional documents that are acceptable to us to verify this information or any
changes. We maintain the right to restrict or close your account if your information cannot be verified or if you do not provide additional information
as requested.
c) Credit Limits.
i) On or about the date you received this Agreement, we notified you in writing of your credit limit, which will also appear on your statements.
ii) You are responsible for keeping track of your account balances and your available credit limit. You agree not to use your card to attempt to obtain
credit in excess of your credit limit. We may still honor transactions above your credit limit, but our honoring of these transactions will not increase your
credit limit, and is at our sole discretion.
iii) We may also increase, decrease, restrict, or cancel your credit limit at any time, subject to applicable law. This will not affect your obligation to pay the
indebtedness as required by this Agreement. If we change your credit limit, we will notify you in the manner required by applicable law.
d) Acceptance of this Agreement and Changes to this Agreement.
i) We issued cards to you as identified in the application. All issued cards were sent to you at the address you provided in your application. You will be
deemed to have accepted and agreed to this Agreement on the day you first use the card to initiate a transaction after you first receive the card.
ii) You will be deemed to have accepted changes to this Agreement and the related documents the first time you use the card to initiate a transaction after a
change is effective.
2) Your Account Use Agreements.
a) Using Your Account.
i)
You promise to follow the terms of this Agreement as long as your account remains open or has a balance due. Please sign the card immediately
when you receive it. The card is valid during the dates provided on the front.
ii)
The card is our property, and you will return it to us or destroy it if we ask.
iii)
You will take reasonable steps to prevent the unauthorized use of the card.
iv)
We are not responsible if anyone refuses to accept the card for any reason. Also, we may reject any transaction for any reason. We may limit the type,
number, or aggregate dollar amount of transactions you are permitted to initiate in a day, week, or billing cycle for security reasons. If we impose such
limits, you agree that we will not be liable to you if we do not authorize or process transactions in excess of those limits. Unless we tell you
otherwise, we will bill each transaction to your account and apply it against your available credit limit for each billing cycle.
v)
Unless we agree, you may not use a transfer to transfer amounts from other accounts with us or any of our affiliates.
vi)
You must not use, or try to use, the card for any Internet gambling transactions or transactions that are illegal or not permitted by us. You will still be
responsible for all indebtedness arising from such transactions if you do, and they will be subject to this Agreement. You might have to reimburse the
network and us for all damages and expenses.
vii) You agree that you will not use your card if we or you have suspended or canceled the card or account; after you have reported the card lost or stolen;
after you file a petition for bankruptcy; or if you do not honestly expect to be able to pay your indebtedness in full.
viii) From time to time, due to circumstances beyond our control (such as system failures, fires, floods, natural disasters or other unpredictable events),
our services might be unavailable. When this happens, you might be unable to use the card or obtain information about your account. We will not be
responsible or liable if this happens.
b) Transactions Made in Foreign Currencies.
i) A currency conversion transaction fee in the amount set forth in the Disclosure Statement will be assessed on all transactions where the merchant country
differs from the card issuer’s country. The converted transaction amount will be shown separately from the international transaction fee on your
statement.
ii) An international transaction fee in the amount set forth in the Disclosure Statement will be assessed on foreign transactions where a currency conversion
is not performed.
c) No Warranties. Except as otherwise provided in the “Billing Rights Summary” part of your statements (see Section 3(h)), we are not responsible for any
claim you might have regarding the purchases of goods or services made with the card.
d) Merchant Refunds. If you are entitled to a refund for goods or services purchased with the card, you will accept these refunds as credits to your account.
We do not control when a merchant sends us your refund. We will also have a reasonable amount of time after we receive your refund to process it.
e) Using a PIN.
i) We may give you a PIN. For security reasons, you might have to provide the PIN before you are able to complete some transactions using the card.
ii) With a PIN, you may use the card to obtain cash from certain ATMs, or make purchases at certain merchant POSs. You may do these things if the
ATM or POS requires entry of a PIN and displays the logo of the network on the card.
iii) You should keep your PIN secure and not write it down, give it to anyone, or keep it with the card. If you lose the card or believe that someone has
gained unauthorized access to your PIN, you must contact us immediately.
3. Your Payment Agreements.
2

a)

b)
c)

Your Promise to Pay. You promise, individually and jointly, to pay us all amounts due on your account. This includes amounts where you did not sign a
purchase slip or other documents for the transaction. If you use the card number without presenting the physical card (such as for mail, telephone or
Internet purchases), this will be treated the same way as if you presented the card. If you let someone else use the card, you are responsible for all
transactions that person makes.
Making Payments. Your payments must be in U.S. dollars from a U.S. deposit account and otherwise be acceptable to us. We do not accept cash
payments through the mail. You may not make payments with funds from your account or any other credit account with us or any of our affiliates.
Interest Charges and Fees. We will charge interest charges and fees to your account as disclosed to you in the Disclosure Statement and your statements.
i)
Interest Charges. In general, interest charges begin to accrue from the day a transaction occurs.

Fees. The following fees apply to your account only if they are provided in the Disclosure Statement.
(a) Annual Fee. We may charge this fee upon each anniversary of your card issue date.
(b) Balance Transfer Fee. We will charge this fee each time you request us to transfer a balance from another institution to your card account.
(c) Card Replacement Fee. We may charge this fee if we issue a replacement card at your request prior to the card’s normal reissue date.
(d) Cash Advance Fee. We may charge this fee each time you obtain a cash advance.
(e) Copying Fee. We may charge a per-page fee for copies of transaction documents or statements unless they are required when resolving a billing
dispute.
(f) Currency Conversion Fee. We may charge this fee under the circumstances described in Section 2(b)(i).
(g) International Transaction Fee. We may charge this fee under the circumstances described in Section 2(b)(ii).
(h) Late Payment Fee. We will charge this fee if by 10 days after your scheduled payment due date, we have not received your minimum payment.
(i) PIN Replacement Fee. We may charge this fee each time a new PIN is generated for you upon your request.
(j) Returned Payment Fee. We may charge this fee each time any payment you make to us is not paid by your financial institution for any reason,
even if your institution later pays it.
(k) Special Processing Fee. We may charge this fee if you request that your account have expedited processing and expedited delivery of your card to
you.
iii) We will not charge both a late payment fee and a returned payment fee in the same billing cycle.
iv) We may increase your interest charges and fees as described in Section 4(j) or in the related documents.
ii)

d)

e)
f)

g)

h)
i)

(a) We will not assess interest charges on any new purchases or balance transfers posted to your account provided you have paid your previous balance in full
by its due date.
(b) Interest charges will begin accruing on the date of the transaction for all cash advances. There is no grace period to avoid paying interest on these
transactions.
(c) The back of the statement provides a detailed explanation for calculating your interest charges.

Minimum Payment

Your statement will provide instructions for making payments, including the amounts due and the due date. If applicable, your statement will also
provide a minimum payment amount. To avoid a late payment fee, your minimum payment must be received by us no later than 10 days after your
scheduled payment due date.
ii)
In addition to the minimum payment, you may pay all or part of the balance on your account. However, you must still pay at least the minimum
payment amount each month, even if you paid more than the minimum on the previous statement. We will continue to charge interest charges during
billing cycles when you carry a balance regardless of whether your statement includes a minimum payment. If your account is 90 days past due, the entire
balance is immediately due and payable.
iii)
Payments will be applied in the following order: (A) interest charges; (B) previous cash advances (including transfers); (C) previous purchases; (D)current
cash advances (including transfers); and finally to (E) current purchases.
Index; Periodic Rate. The index, margin, APR, and periodic rate are contained in the Disclosure Statement.
Penalty Rate. If your minimum payment is not received within 60 days of the payment due date, your entire account balance is subject to the penalty rate
of 24.99% APR. The Penalty APR will remain in place until you make six (6) consecutive minimum monthly payments when due, as indicated on
your monthly account statement. After six (6) consecutive payments, the APR will revert to the standard APR as shown on the Account Opening
Disclosure for Purchases, Balance Transfers, and Cash Advances. If you do not make these six (6) consecutive minimum payments, we may keep the Penalty
APR on your account indefinitely.
Notice of Unauthorized Use. If the card is lost or stolen, or if you think someone is using the card without your permission, notify us
immediately, orally and in writing, at:
Armed Forces Bank, N.A.
Attn: Credit Card Department
PO Box 26458
Kansas City, Missouri 64196-6458
Toll Free: 1.888.929.2265
You may be liable for the unauthorized use of the card that occurs before you notify us of such use. Your liability will not exceed $50.00 or the
amount of money, property, labor, or obtained by unauthorized use before you notify us, whichever is less. You will not be liable for unauthorized
use that occurs after you notify us and we have a reasonable opportunity to act on such notice. In no event shall we be obligated to reissue a lost
or stolen card. You agree that we may monitor and/or record all telephone communications between you and us.
Zero Liability Policy. As a VISA® cardholder, you have certain rights under VISA’s Zero Liability program. For details, see
http://usa.visa.com/personal/security/visa_security_program/zero_liability.html.
Disputed Transactions.
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act. (i)
i)
What to Do If You Find a Mistake On Your Statement
(a) If you think there is an error on your statement, write to us at:
Armed Forces Bank, N.A.
Attn: Credit Card Department
Post Office Box 26458
Kansas City, Missouri 64196-6458
(b) In your letter, give us the following information:
(i) Account Information: Your name and account number.
(ii) Dollar Amount: The dollar amount of the suspected error.
(iii) Description of the Problem: If you think there is an error on your statement, describe what you believe is wrong and why you believe
i)

3

it is a mistake.
You must contact us:
(i) Within 60 days after the error appeared on your statement.
(ii) At least three business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.
(iii) You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay us the amount in question.
ii)
What Will Happen After We Receive Your Letter
(a) When we receive your letter, we must do two things:
(i) Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
(ii) Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the statement is correct the
error.
(b) While we investigate whether or not there has been an error:
(i) We cannot try to collect the amount in question, or report you as delinquent on that amount.
(ii) The charge in question may remain on your statement, and we may continue to assess interest charges on that amount.
(iii) While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
(iv) We can apply any unpaid amount against your credit limit.
(c) After we finish our investigation, one of two things will happen:
(i) If we made a mistake: You will not have to pay the amount in question or any interest charges or other fees related to that amount.
(ii) If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest charges and fees.
We will send you written notice of the amount you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.
(d) If you receive our explanation but still believe your statement is wrong, you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your statement. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled
between us.
(e) If we do not follow the rules above, you do not have to pay the first $50.00 of the amount you question even if your statement is correct.
iii)
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
(a) If you are dissatisfied with the goods or services that you have purchased with the card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
(b) To use this right, all of the following must be true:
(i) The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price
must have been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to
you, or if we own the company that sold you the goods or services.)
(ii) You must have used your card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
account do not qualify.
(iii) You must not yet have fully paid for the purchase.
(c) If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Armed Forces Bank, N.A.
Attn: Credit Card Department
Post Office Box 26458
Kansas City, Missouri 64196-6458
(d) While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
j) Other Consequences of a Dispute. If you dispute a transaction made by you or someone else on your account, and we later credit your account for all or
part of the disputed amount, you give us all of your rights against that other person. In addition, you will:
i) give us any merchandise or other purchases you received in connection with the disputed amount if we ask;
ii) not pursue any claim or reimbursement from the merchant and that other person; and
iii) help us pursue and get reimbursement from the merchant and that other person. Your help includes giving us documents that we ask for and that
are acceptable to us.
k) Mailed Payments.
i) You must mail payments to us at the address provided on your statement or as otherwise instructed by us. We will credit each payment to your
account on the day we receive it if:
(1) you send the payment coupon included with your statement in the same envelope with your payment;
(2) you include your account number on your payment item; and
(3) your payment arrives at the address indicated on the payment coupon by the cutoff time.
ii) Unless otherwise specified in Section 3(k)(iii), and except as limited by applicable law, payments that conform to the requirements of Section 3(k)(i)
will be credited to your account if we receive them by the cutoff time. If we receive any payment after the cutoff time, we will apply it the next business day
except when a delay does not result in a finance or other charge. If the due date falls on a weekend or holiday, or a day on which we do not receive or
accept payments, then we will treat any payment received by us at the correct address by the cutoff time on the next business day as if we received it by
the cutoff time on the due date. We will not impose a separate fee for you to make payments unless the applicable payment method involves an
expedited (that is same day or next day) delivery service.
iii) We may accept payments that do not conform to the requirements set forth in this Section 3(k), and if we do so, we will apply them to your account
not later than five days after we receive them.
Our Account Servicing Agreements.
a) Statements. We will send you one statement for all cards issued with respect to your account per billing cycle unless applicable law does not require or permit us
to send only one statement. Statements will be sent at the end of each billing cycle when your account has a debit or credit balance of more than $1.00, or if we
have charged any interest charges to your account. Your statement will show all transactions billed to your account during the billing cycle along with other
important account information.
b) Payment Processing.
i) We may accept and process payments without losing any of our rights. Even if we apply your payment to your account, we may delay the availability
(c)

4)

4

c)

d)

e)

f)

g)

h)

i)
j)

of credit until we confirm that your payment has cleared. We may resubmit and electronically collect returned payments. We may also adjust your
account as necessary to correct errors, to process returned and reversed payments, and to handle similar issues.
ii) When you provide an item as payment you authorize us either to use information from your item to make a one time electronic fund transfer from
your deposit account or to process the payment as an item. We will provide additional information about this process on your statement or other
documents we send you before your payment. You may contact us and ask that we not process your future items in this way.
iii) When you provide an item as payment, it might also be converted into an electronic image and collected and returned electronically. These electronic
images may also be converted to substitute checks. We will not be responsible if an item you provide has physical features that when imaged result in
it not being processed as you intended.
Items with Restrictive Words, Conditions or Instructions. All items that have restrictive words, conditions, limitations, or special instructions added
(including items marked with the words “Paid in Full” or similar language) and all accompanying communications must be mailed to and received at the
address in your most recent statement. If you make your payment or send any accompanying communications to any other address, we may accept and
process the payment without losing any of our rights.
Credit Balances. We may reject and return to you any payment that creates a credit balance on your account. If we allow you to create a credit balance,
such balance will not be available until we confirm that your payment has cleared. We may reduce the amount of a credit balance by any new transactions
posted to your account. You may contact us in writing as provided on your statement and request a refund of an available credit balance. We will refund
your credit balance not later than seven business days after we receive your written request.
Account Default.
i) We may consider you in default under this Agreement if:
(1) you do not make a payment by its due date;
(2) any payment you make is rejected, not paid, or cannot be processed;
(3) you exceed your credit limit;
(4) a bankruptcy or other insolvency proceeding is filed by or against you;
(5) you die or are legally declared incompetent or incapacitated;
(6) we determine that you made a false, incomplete, or misleading statement on any of your account documentation, or you otherwise tried to
defraud us;
(7) you do not comply with any term of this Agreement, the related documents, or any other agreement with us; or
(8) you permanently reside outside the United States.
ii) If your account is in default, we may charge the late payment fee set forth in Section 3(c)(ii) and the Disclosure Statement.
iii) Paying the fees charged in connection with a default will not by itself cure the default. In addition, if you are in default, we may take the following
actions without notifying you, unless we are required to do so by applicable law:
(1) close or suspend your account;
(2) lower your credit limit;
(3) increase your minimum payment;
(4) demand that you immediately pay the entire indebtedness (for example, as described in Section 3(d));
(5) continue to charge you interest charges and fees as long as any indebtedness remains outstanding; and/or
(6) pursue any other action against you that is permitted by applicable law, including the filing of a lawsuit against you.
iv) You must pay us all of our collection expenses, attorneys’ fees, and court costs, unless applicable law does not allow us to collect these amounts.
Communications.
i) We may contact you from time to time regarding your account. We may contact you in any manner we choose unless prohibited by applicable law. For
example, we may:
(1) contact you by mail, telephone, cellular phone, email, fax, recorded message, text message, or personal visit;
(2) contact you at your home and at your place of employment;
(3) contact you at any time, including weekends and holidays;
(4) contact you with any frequency;
(5) leave prerecorded and other messages on your answering machine/service and with others; and
(6) identify ourselves, your relationship with us, and our purpose for contacting you even if others might hear or read it.
ii) Our contacts with you about your account are not unsolicited and might result from information we obtain from you or others. We may monitor or
record our conversations or other communication with you. Unless prohibited by applicable law, we may modify or suppress caller ID and similar
services and identify ourselves on these services in any manner we choose. When you give us, or we obtain, your mobile tele- phone number, we
may contact you at this number and can also leave prerecorded and other messages. We may do these things whether we contact you or you contact
us.
iii) If you ask us to discuss your account with a person, you must provide us with documents that we ask for and that are acceptable to us.
Credit Reports.
i) We may provide information about you and the account to consumer (credit) reporting agencies and others as provided in the related documents.
Information we provide might appear on your credit reports and your authorized users’ credit reports. This could include negative information if you
do not comply with the terms of this Agreement.
ii) We may obtain and use credit and income information about you from consumer (credit) reporting agencies and others as permitted by applicable
law.
Closing or Suspending Your Account.
i) You may ask us to close your account by writing us as described on your statement. Your statement will provide additional information about this
process, and we may also separately provide you with additional details after your request. This might include payment information. If you use the
card or charges post to your account after you ask us to close it, we may keep it open or re-open it.
ii) We may close or suspend your account and your right to obtain credit from us. We may do this at any time and for any reason permitted by applicable
law, even if you are not in default. A suspension of your account might be permanent or temporary.
iii) If your account is closed or suspended for any reason, you must stop using the card. You must also cancel all billing arrangements that access the
account. We will not do this for you. If we close or permanently suspend your account, you must also destroy all cards. You must still pay the indebtedness
in full, even if it includes transactions posted to your account after we close or suspend it.
New Offers. In the future, we might make new offers to you or forward offers from others that we think you might be interested in. These offers may
have new or different terms and documentation for these offers will be provided when we make you the offer. If you accept the offer, your previously
disclosed terms will still apply except as modified by the offer.
Changes to this Agreement.
i) At any time, we may add, delete, or change any term of this Agreement unless prohibited by applicable law. We will give you notice of any changes as
required by applicable law. If we do notify you of changes, we will send you a separate notice or inform you on your statement. We may send this notice
5

5)

to you electronically as permitted by applicable law. Our notice will tell you when and how the changes will take effect and describe any rights you
have in connection with the changes.
ii) If we increase your interest charges for any other reason we will notify you in writing. If we increase your fees or other terms of your account we will
notify you in writing and inform you of your options in advance, including the right to opt out of some of these changes.
Miscellaneous.
a) The Law that Applies to this Agreement.
i) Our headquarters is in Kansas and this Agreement will be interpreted using THE KANSAS UNIFORM CONSUMER CREDIT CODE and law.
Federal law will be used when it applies.
ii) You waive any applicable statute of limitations specified in applicable law. Otherwise, the applicable statute of limitations period for all provisions and
purposes under this Agreement (including the right to collect debt) will be the period provided by Kansas or the jurisdiction where you live,
whichever is longer.
iii) If any part of this Agreement is found to be unenforceable, the remaining parts will remain in effect.
b) Waiver. We will not lose any of our rights if we delay taking any action for any reason or if we do not notify you. For example, we may waive your interest
charges or fees without notifying you and without losing our right to charge them in the future. We may always enforce our rights later and may take other
actions not listed in this Agreement if permitted by applicable law. You do not have to receive notice from us of any waiver, delay, demand, or dishonor.
We may proceed against you before proceeding against any other person.
c) Assignment.
i) This Agreement will be binding on, and benefit, any of your and our successors and assigns.
ii) You may not transfer this account or this Agreement to any person without our written permission.
iii) We may transfer your account and this Agreement to any person without your permission and without prior notice to you. They will take our place
under this Agreement. You must pay them and perform all of your obligations to them and not us. If you pay us after you are informed or learn
that we have transferred your account or this Agreement, we can handle your payment in any way we think is reasonable and permitted by applicable
law. This includes returning the payment to you or forwarding the payment to the person to whom we transferred your account.
d) Glossary.
i) Account means the card account we have opened for you in response to your application.
ii) Affiliates means all financial institutions owned by Dickinson Financial Corporation. As of the publication date of this Agreement, our affiliates are:
Academy Bank, N.A.
(1) all disclosures and materials provided to you before or when you opened your account;
(2) all other documents and disclosures relating to your account including those provided online; and
(3) all privacy notices describing our limitations on sharing information about you with others;
(4) all statements;
(5) any future documents describing changes we make to any of the above things.
iii) Applicable law means the laws, regulations, court decisions, administrative rulings and the like adopted by, or in effect from time to time within, the
State of Kansas and the United States of America.
iv) Application means the form you completed to apply for an account and card that contains the information described in Section 1(b).
v) ATM means an automated terminal machine provided by a financial institution or another person at which cards may be used as access devices to
obtain cash.
vi) Billing cycle means a period of time that might vary in length but is approximately 30 days in duration. The specific period of time is described on
each statement. However, you will have a billing cycle even if we are not required by applicable law to make a statement available to you. We will often
specify a billing cycle by the month in which its closing date occurs as provided on the statement. For example, a “March billing cycle” will have a closing
date in March. If we charge off your account balance, we may switch to quarterly billing cycles.
vii) Business day means any day in which our offices are open for the processing of payments and transactions.
viii) Card means each AFB credit card associated with your account, and includes all renewals and substitutions of the initial card issued to you. Card also
means your account number, which you may use to initiate transactions without presenting the card itself.
ix) Cash advance means using the card to obtain cash or things we consider cash equivalents. Cash equivalents include wire transfers, travelers’ checks,
money orders, foreign currency, lottery tickets, gaming chips, and wagers.
x) Credit limit means the maximum outstanding indebtedness you may incur by use of the card, as disclosed to you in the related documents.
xi) Cutoff time means 5:00 p.m. Central Time, Monday through Friday.
xii) Disclosure Statement means the document titled “Unsecured Credit Card Account-Opening Disclosure” that you received when you submitted your
application.
xiii) Due date means the date shown on each statement by which we must receive at least a minimum payment before a late payment fee is imposed.
xiv) Fees means charges imposed on your account that are not included in the calculation of the Annual Percentage Rate.
xv) Indebtedness means all amounts you owe us under this Agreement including, without limitation, all transactions charged to, and not thereafter reversed
from, your account.
xvi) Index has the meaning set forth in the Disclosure Statement.
xvii) Interest charges means any charges to your account based on the application of the Annual Percentage Rate to the account balance as set forth in the
related documents.
xviii) Item means a check, draft, money order, or other negotiable instrument (including images of these instruments) you use to make payments on the
indebtedness.
xix) Merchants are sellers of goods and/or services who have agreed with a network to accept cards in payment of the purchase price of the goods and/or
services they sell.
xx) Minimum payment means the amount so specified in each statement, calculated as set forth in the Disclosure Statement.
xxi) Network means Visa lnc., Mastercard International Incorporated, or any other network provider displayed on the card.
xxii) Person means a human being, a trust, or a legal entity other than you, or us, as the context requires.
xxiii) PIN means the personal identification number we will give you that allows us to authenticate transactions initiated at ATMs or POSs.
xxiv) POS means a point-of-sale device at which cards may be used to (A) pay for purchases, and/or (B) obtain cash.
xxv) Purchases means those transactions in which you acquire goods and services from merchants from time to time by using the card.
xxvi) Related documents means the following documents:
(1) the correspondence we send you confirming that your application has been approved;
(2) the Disclosure Statement;
(3) the most-current version of the card benefits brochure, which describes benefits provided by the network for the card and your account.
xxvii) Statement means a document or information we make available to you showing account information including, among other things:
6

(1) Transactions made to your account during a billing cycle.
(2) The minimum payment.
(3) Other information required by applicable law.
xxviii) Transaction means each transfer, purchase, and cash advance.
xxix) Transfers means balances transferred from other accounts to the account.

© Armed Forces Bank, N.A.
All rights reserved.
Published as of 3-16-2019

7

Privacy Policy
Rev. 09/2016

FACTS

WHAT DOES ARMED FORCES BANK DO WITH YOUR PERSONAL INFORMATION?

Why?

Financial companies choose how they share your personal information. Federal law gives
consumers the right to limit some but not all sharing. Federal law also requires us to tell you
how we collect, share, and protect your personal information. Please read this notice carefully to
understand what we do.

What?

The types of personal information we collect and share depend on the product or service you
have with us. This information can include:




How?

Social Security Number and Income
Account Balance and Payment History
Credit History and Credit Scores

All financial companies need to share customers’ personal information to run their everyday
business. In the section below, we list the reasons financial companies can share their
customers’ personal information, the reasons Armed Forces Bank chooses to share; and
whether you can limit this sharing.

Reasons we can share your personal information

Does Armed Forces
Bank share?

Can you limit this sharing?

For our everyday business purposes—
such as to process your transactions, maintain
your account(s), respond to court orders and legal
investigations, or report to credit bureaus

Yes

No

For our marketing purposes—
to offer our products and services to you

Yes

No

For joint marketing with other financial companies

Yes

No

For our affiliates’ everyday business purposes—
information about your transactions and experiences

Yes

No

For our affiliates’ everyday business purposes—
information about your creditworthiness

Yes

Yes

For our affiliates to market to you

Yes

Yes

For nonaffiliates to market to you

No

We Don’t Share

To limit
our sharing



Call 888.929.2265 and speak to a customer care representative.

Please note:
If you are a new customer, we can begin sharing your information 30 days from the date we sent
this notice. When you are no longer our customer, we continue to share your information as
described in this notice.
However, you can contact us at any time to limit our sharing.

Questions?

Call 888.929.2265 or go to afbank.com

Page 2
Who we are
Who is providing this notice?

Armed Forces Bank

What we do
How does Armed Forces Bank protect
my personal information?

To protect your personal information from unauthorized
access and use, we use security measures that comply
with federal law. These measures include computer
safeguards and secured files and buildings.

How does Armed Forces Bank collect
my personal information?

We collect your personal information, for example, when you




Open an account or deposit money
Pay your bills or apply for a loan
Use your Credit or Debit Card

We also collect your personal information from others, such as credit
bureaus, affiliates, or other companies.
Why can’t I limit all sharing?




Federal law gives you the right to limit only




sharing for affiliates’ everyday business purposes—
information about your creditworthiness
affiliates from using your information to market to you
sharing for nonaffiliates to market to you

State laws and individual companies may give you additional
rights to limit sharing.
What happens when I limit sharing
for an account I hold jointly with
someone else?

Your choices will apply to everyone on your account.

Definitions
Affiliates

Companies related by common ownership or control.
They can be financial and nonfinancial companies.


Our affiliates include Dickinson Financial Corporation
and Academy Bank, N.A. .



Nonaffiliates

Companies not related by common ownership or control.
They can be financial and nonfinancial companies.


Armed Forces Bank does not share with nonaffiliates
so they can market to you.



Joint marketing

A formal agreement between nonaffiliated financial
companies that together market financial products or
services to you.


Our joint marketing partners include financial service
companies.

